audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues by the New York State Police Department
GR-70-01-001
December 6, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The United States Department of Justice, Office of the Inspector General has completed an audit of the use of equitable sharing revenues by the New York State Police Department (NYSPD).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.

	Generally, we determined that the NYSPD complied with equitable sharing guidelines.  However, we found that:

the NYSPD commingled federal equitable sharing receipts with other state funds within its equitable sharing fund account;

	on its FY 1998 Federal Annual Certification Report, the NYSPD understated equitable sharing receipts by $270,231; and

	the NYSPD budgeted for anticipated equitable sharing receipts. 

The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Objectives, Scope, and Methodology appear in Appendix I.